NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

MICHAEL JAMES BARNES
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 18-60497

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Michael J.
Barnes requests leave to file the accompanying Petition for Writ of Certiorari from
the United States Court of Appeals for the Fifth Circuit without prepayment of
costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the
United States District Court for the Southern District of Mississippi and on appeal
to the United States Court of Appeals for the Fifth Circuit.
1

